No. _________
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------GEORGE CANTU,
Petitioner,
v.
PROVIDENCE HOSPITAL AND
DR. SAREEV VADERAH, MD.,
Respondents.
---------------------------------♦--------------------------------Petition For Writ Of Certiorari
To The Washington Supreme Court
---------------------------------♦--------------------------------PETITION FOR WRIT OF CERTIORARI
---------------------------------♦--------------------------------WILLIAM C. BUDIGAN
2601 42nd Ave. W
Seattle, WA 98199-3011
(206) 284-5305
info@budiganlaw.com
Attorney for Petitioner George Cantu
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
QUESTIONS PRESENTED
I. Does Washington State’s RCW 4.16.350(3), granting one year statute of limitations after discovering
medical malpractice and eight year repose compared
to three year discovery rule and unlimited repose statute of limitations in other bodily injury cases in RCW
4.16.080(2) violate constitutional rights to equal protection, due process, right to jury trial, and grant special privileges and immunities to health care providers
versus their victims and contrary to the situation of
other citizens of these United States?
II. Did the Washington Courts, in dismissing and failing to reverse dismissal of Plaintiff ’s medical malpractice case for failure to provide an expert opinion
thereon, violate Mr. Cantu’s due process constitutional
rights by denying application of the discovery rule extending the statute of limitations to join as a party the
allegedly negligent anesthesiologist and by denying
him litigation discovery information necessary for his
Stanford University anesthesiology professor expert to
support his case?

ii
PARTIES TO THE PROCEEDING
Mr. George Cantu, Plaintiff in the underlying suit
and Appellant in the Court of Appeals, Petitioner in the
Washington Supreme Court, and was Pro se until this
Petition.
Providence Hospital was Defendant in the underlying suit and Appellee in the Court of Appeals, and
Respondent in the Washington Supreme Court.
Mr. Cantu did not appeal the original uncontested
dismissal of Defendant Dr. Vaderah from the case because instead, right before dismissal, Dr. Usoltsev was
discovered to have done the anesthesia in error and as
an independent contractor company hired by Defendant Providence Hospital.
STATEMENT OF RELATED CASES
Cantu v Providence, No. 18-2-02129-31, Superior
Court of Snohomish County.
Judgment entered June 6, 2019.
Cantu v Providence, No. 80229-1-I, Court of Appeals Division I.
Judgment entered August 10, 2020.
Cantu v Providence, No. 99167-7, Supreme Court
of the State of Washington.
Judgment entered March 3, 2021.

iii
OTHER RELATED CASES
After the dismissal of the subject case in State
Superior Court (not allowing Mr. Cantu litigation discovery of the recently identified anesthesiologist,
Dr. Usoltsev, and adding him as a party to the case),
Mr. Cantu that very day filed a separate lawsuit
against Dr. Usoltsev, Cantu v Usoltsev, and this case
was also dismissed. Mr. Cantu is currently seeking a
Petition for Review with the Washington Supreme
Court, No. 99817-5.
Cantu v Dr. Usoltsev et al., No. 19-2-05127-31,
Superior Court of Snohomish County.
Judgment entered October 4, 2019.
Cantu v Dr. Usoltsev et al, No. 80742-2-I, Court of
Appeals Division I.
Judgment entered March 22, 2021.
Cantu v Providence, No. 99817-5, Supreme Court
of the State of Washington.
Pending.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW ........

i

PARTIES TO THE PROCEEDINGS ...................

ii

RELATED CASES ...............................................

ii

TABLE OF CONTENTS ......................................

iv

TABLE OF AUTHORITIES .................................

vi

PETITION FOR A WRIT OF CERTIORARI .......

1

OPINIONS BELOW.............................................

1

JURISDICTION ...................................................

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED...........................................

2

STATEMENT OF THE CASE..............................

4

REASONS FOR GRANTING THE PETITION .....

16

I.

THE SUPREME COURT, FEDERAL CIRCUITS, AND STATE HIGHEST COURTS
ARE IN CLEAR CONFLICT REGARDING CONSTITUTIONAL PROTECTIONS
IN MEDICAL MALPRACTICE DISCOVERY RULE CASES .................................... 16
A. FEDERAL CIRCUIT COURTS IN
CONFLICT WITH KUBRICK AND
AMONGST THEMSELVES ................. 24
B. STATE COURTS IN CONFLICT WITH
KUBRICK AND EACH OTHER .......... 27

v
TABLE OF CONTENTS—Continued
Page
II.

DUE PROCESS IS VIOLATED WHEN
STATES DO NOT FOLLOW THEIR OWN
CIVIL RULES AND HERE THE SUPREME COURT SHOULD REVERSE
WASHINGTON’S RULING AS A BEACON TO ALL STATES AND THIS VIOLATION TOOK AWAY MR. CANTU’S
DISCOVERY RULE BASIS FOR HIS
SUIT AGAINST THE DOCTOR AND
SUIT AGAINST THE HOSPITAL, BOTH
WHOM THE COURT DID NOT COMPEL
EVIDENCE SUPPORTING THE DISCOVERY RULE, THE EXPERT OPINION, AND THE SUIT ................................ 33

CONCLUSION..................................................... 40
APPENDIX
Supreme Court of the State of Washington, Order, Filed Mar. 3, 2021 ...................................... App. 1
Court of Appeals for the State of Washington,
Opinion, Filed Aug. 10, 2020 ............................ App. 2
Superior Court of Washington in and for Snohomish County, Order, Filed Jun. 26, 2019 ....... App. 11
Superior Court of Washington in and for Snohomish County, Order, Filed Jun. 6, 2019 ......... App. 12
Superior Court of Washington in and for Snohomish County, Order, Filed Jun. 6, 2019 ......... App. 15

vi
TABLE OF AUTHORITIES
Page
CASES:
Allen v. State,
118 Wn.2d 753 (1992) .............................................18
Anthony v. Abbott Laboratories,
490 A.2d 43 (R.I. 1985)............................................29
Arroyo v. U.S.,
656 F.3d 663 (7th Cir. 2011) ....................................25
Bailey v. Glover,
21 Wall. 342 (1875) ..................................................30
Bayless v. United States,
767 F.3d 958 (10th Cir. 2014) ..................................26
Brazzell v. United States,
788 F.2d 1352 (8th Cir. 1986) ..................................27
Breithaupt v. Abram,
352 U.S. 432 (1957) .................................................34
Butler v. Joy,
116 Wn.App. 291 (2003) ..........................................34
Cloer v. Sec. of Health and Human Serv.,
654 F.3d 1322 (Fed. Cir. 2011) ................................26
Coggle v. Snow,
56 Wash.App. 499 (1990).........................................35
Cohen v. Virginia,
6 Wheat 264 (1821) ...................................................1
Degussa Corporation v. Mullens,
744 N.E.2d 407 (Ind. 2001) .....................................27

vii
TABLE OF AUTHORITIES—Continued
Page
Gutierrez v. Mofid,
39 Cal.3d 892, 218 Cal.Rptr. 313,
705 P.2d 886 (1985) .................................................32
Griffith v. State,
41 Ariz. 517, 20 P.2d 289 (1933)..............................32
Holmberg v. Armbrecht,
327 U.S. 392 (1946) .................................................30
Joint Anti-Fascist Committee v. McGrath,
341 U.S. 123 (1951) .................................................34
Jurich v. John Crane, Inc.,
824 N.E.2d 777 (Ind.App. 2005)..............................30
Maestas v. Zager,
141 N.M. 154 (N.M. 2007) .......................................29
Martin v Richey, Jr., M.D.,
711 N.E.2d 1273 (Ind. 1999) ............................. 28, 30
McIntyre v. U.S.,
367 F.3d 38 (1st Cir. 2004) ......................................26
Miller v. Philadelphia Geriatric Center,
463 F.3d 266 (3d Cir. 2006) .....................................24
Nicolazzo v. United States,
786 F.2d 454 (1st Cir. 1986) ....................................24
Pedersen v. Zielski,
822 P.2d 903 (Alaska 1992).....................................29
PLIVA, Inc. v Mensing,
564 U.S. 604, 131 S.Ct. 2567,
180 L.Ed.2d 580 (2011) .............................................2

viii
TABLE OF AUTHORITIES—Continued
Page
Rotella v. Wood,
528 U.S. 549, 120 S.Ct. 1075,
145 L.Ed.2d 1047, 68 U.S.L.W. 4153 (2000) ..... 23, 24
Santos v. U.S.,
559 F.3d 189 (3d Cir. 2009) .....................................26
Siler v. Louisville & N.R. Co.,
213 U.S. 175 (1909) ...................................................2
Stoleson v. United States,
629 F.2d 1265 (7th Cir. 1980) ..................................25
Taylor v. Freeland & Kronz,
503 U.S. 638, 112 S.Ct. 1644,
118 L.Ed.2d 280, 60 U.S.L.W. 4333 (1992) .............30
Tellevik v. 31641 W. Rutherford St.,
120 Wn.2d 68 (1992) ................................... 35, 36, 37
United States v. Kubrick,
444 U.S. 111, 100 S.Ct. 352,
62 L.Ed.2d 259 (1979) ..................................... passim
Wollman v. Gross,
637 F.2d 544 (8th Cir. 1980) ....................................25
Winter v. U.S.,
244 F.3d 1088 (9th Cir. 2001) ..................................27
Walk v. Ring,
44 P.3d 990, 202 Ariz. 310 (Ariz. 2002) ...................30
Wilson v. El-Daief,
600 Pa. 161 (Pa. 2009) .............................................27

ix
TABLE OF AUTHORITIES—Continued
Page
STATUTES:
28 U.S.C. § 1257(a) ........................................................1
RCW 4.16.080(2) ..................................................... 3, 18
RCW 4.16.350(2) .........................................................18
RCW 4.16.350(3) ..................................... 3, 6, 17, 18, 20

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
---------------------------------♦---------------------------------

OPINIONS BELOW
The opinion of the highest state court to review the
merits appears at Appendix 1 to the petition and is unpublished.
The opinion of the state appellate court appears at
Appendix 2 to the petition and is unpublished.
---------------------------------♦---------------------------------

JURISDICTION
The date on which the highest state court decided
my case was March 3, 2021. A copy of that decision appears at Appendix 1.
The jurisdiction of this Court is invoked under 28
U.S.C. § 1257(a).
Supreme Court jurisdiction to review a highest
state court decision here is invoked by this being a case
in law and equity consisting of the right of the parties
arising under the Constitution of the United States as
its correct decision depends on the construction of the
Constitution. Cohen v. Virginia, 6 Wheat 264 (1821).
Here, constitutional rights of petitioner arise in
a genuine controversy with color of merit which
depend upon the effect or construction of the

2
United States Constitution amendments iv, v, vi,
vii, and xiv. All issues raised here are reviewable because the rule has long been established that where a
federal question is raised and a case is presented arising under the Constitution of the United States a Federal court thus having original or removal jurisdiction
thereof also has power, and is authorized, to determine
all questions in the case, local as well as Federal. Siler
v. Louisville & N.R. Co., 213 U.S. 175 (1909). Under the
Supremacy Clause, “[w]here state and federal law ‘directly conflict’ state law must give way.” PLIVA, Inc. v
Mensing, 564 U.S. 604, 617, 131 S.Ct. 2567, 2570, 180
L.Ed.2d 580, 585 (2011).
---------------------------------♦---------------------------------

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
United States Constitution Amendment IV, Section 2 “the citizens of each state shall be entitled to all
privileges and immunities of citizens in the several states.”
United States Constitution Amendment V: “ . . .
nor be deprived of life, liberty, or property, without due
process of law; . . . ”
United States Constitution Article VI, clause 2:
“ . . . This Constitution, and the Laws of the United
States . . . shall be the supreme law of the land; and
the judges in every state shall be bound thereby, anything in the constitution or laws of any state to
the contrary notwithstanding.”

3
United States Constitution Amendment VII: “ . . .
the right of trial by jury shall be preserved . . . ”
United States Constitution Amendment XIV: “No
State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive any person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the
equal protection of the laws.”
Washington State Constitution Article I, sect. 3:
“Personal rights. No person shall be deprived of life,
liberty or property, without due process of law . . . ”
RCW 4.16.080(2) “The following actions shall be
commenced within three years: . . . An action for taking, detaining, or injuring personal property, including
an action for the specific recovery thereof, or for any
other injury to the person or rights of another not hereinafter enumerated;”
RCW 4.16.350(3) “An entity, whether or not incorporated, facility, or institution employing one or more
persons described in subsection (1) of this section, including, but not limited to, a hospital, clinic, health
maintenance organization, or nursing home; or an officer, director, employee, or agent thereof acting in the
course and scope of his or her employment, including,
in the event such officer, director, employee, or agent is
deceased, his or her estate or personal representative;
based upon alleged professional negligence shall be
commenced within three years of the act or omission
alleged to have caused the injury or condition, or one

4
year of the time the patient or his or her representative
discovered or reasonably should have discovered that
the injury or condition was caused by said act or omission, whichever period expires later, except that in no
event shall an action be commenced more than eight
years after said act or omission: PROVIDED, That the
time for commencement of an action is tolled upon
proof of fraud, intentional concealment, or the presence
of a foreign body not intended to have a therapeutic or
diagnostic purpose or effect, until the date the patient
or the patient’s representative has actual knowledge of
the act of fraud or concealment, or of the presence of
the foreign body; the patient or the patient’s representative has one year from the date of the actual
knowledge in which to commence a civil action for
damages.”
---------------------------------♦---------------------------------

STATEMENT OF THE CASE
Mr. Cantu saw Dr. Vaderah (Skagit Valley Medical
clinic), who told him that he needed to immediately
have a surgery for a heart condition. He referred him
to Providence Hospital. On 3/6/15, the heart surgery
(CABG) was performed by Dr. Brevig and three anesthesiologists were involved. Mr. Cantu did not meet
with anesthesiologists before surgery. An unidentified
anesthesiologist put him under and caused an 11 minute Code Blue lack of oxygen to the brain and body.
Brains need oxygen. Within 2 minutes of a Code Blue
(lack of oxygen to the brain) the (neurons) brain cells
begin to experience distress, within 5 minutes neurons

5
start to die, and within 10 minutes brain death is likely
to occur. He was saved by a crash team and a miracle
when on the brink of death. While he was under, a Dr.
Schramm spoke to some of his family members and
said that there had been a Code Blue, but provided no
explanation of cause or effect and he surprisingly said
he was going to go ahead with the surgery. He survived
the surgery and had three very short contacts with the
subject anesthesiologist. The first one was a conversation and the other two just short checkups (Mr. Cantu
thinks that the day after the surgery the anesthesiologist came to his room and told him that there had been
a Code Blue and it was due to his medical error and
Mr. Cantu thinks he told him that he must not do it
ever again to other patients; after this case was dismissed the subject anesthesiologist denies these things,
but only says that it was simply a routine follow up
after surgery and no such statements were made). Mr.
Cantu had memory problems and other neurological
related deficits and went to several providers over the
next three years but none of the doctors and experts
could point to anything the anesthesiologist did to
cause the Code Blue and, importantly, did that fell below the standard of care for an anesthesiologist, and
not knowing the cause they could not link it to the
problems he was dealing with. Finally, on the verge of
running out of the three year statute of limitations for
medical malpractice in Washington State, he filed a
lawsuit pro se which was riddled with errors and
only named Providence Hospital and his original
doctor, Dr. Vaderah, who referred him to Providence
Hospital, thinking in his neurologically challenged

6
incompetence that it was Dr. Vaderah who did the
heart surgery. He did not know the name of the anesthesiologist that caused the Code Blue or the other anesthesiologist involved and did not name them within
the three years because he needed to find out medical
malpractice and cause, effects on his brain and body
for damages, etc. through the lawsuit. He eventually
prepared and served interrogatories and requests for
production of documents, demanding his medical records. Providence Hospital fought tooth and nail to not
provide any discovery whatsoever and brought a motion for summary judgment for failure to file an affidavit of a medical expert to support his case. This is a
standard ploy of medical malpractice insurance defense to not provide information and delay discovery
and yet bring a motion for summary judgment as early
as possible in the case based on lack of information of
the Plaintiff to support their case, all the while the defense holding on to said information. Providence Hospital purposely did not provide any of the information
requested to keep the identity of the anesthesiologist
unknown throughout the entire case so that the anesthesiologist would not be named in the suit and so that
Mr. Cantu would not be able to get information about
the medical malpractice from the anesthesiologist to
prove his case. This is continuous fraudulent concealment which is an exception to the one year “discovery”
statute of limitations under Washington State law
(RCW 4.16.350(3))
Mr. Cantu served Interrogatories and RFPs on or
about 8/27/18 (CLERK’S PAPERS, herein after “CP”

7
113–194 at Exhibit 11) and when these were never answered by the defendants, contrary to the civil rules.
He re-served them a second time 11/7/18 (CP 380–382)
and a third time 2/28/19 (CP 113–194 at the end of the
document), but instead of answering them defendants
brought motions to dismiss and for summary judgment. Mr. Cantu brought numerous motions to compel
answers to discovery (see below) and was forced to
move for continuances of the summary judgment motions (see below) due to lack of all answers to his
discovery requests and most importantly Defendant
Providence Hospital refused to provide any medical
records requested and any information whatsoever regarding the anesthesiologist. Plaintiff ’s 3/2/18 Complaint (CP 478–479) clearly alleged that the medical
malpractice had to do with administration of anesthesia and both defendants did their darndest to hide who
that anesthesia doctor was and to provide no discovery
whatsoever to answer questions about the doctor, the
anesthesia, or to provide any medical records so that
this Pro Se Plaintiff would not name him as a party.
Even Plaintiff ’s 6/15/18 Amended Complaint (CP 405–
416) spelled out that he did not know who the anesthesiologist was and needed the doctors to come clean
about the specific medication error and what was actually administered and all problems caused by it.
Defendant Providence Hospital’s Answer 5/29/18 (CP
419–423) does not say who did anesthesia; there never
was an answer from defendant Dr. Vaderah and his
5/17/18 motion to dismiss does not say who did the anesthesia (CP 445–449); same with Dr. Vaderah’s Motions for Summary Judgment 11/30/18 (CP 365–367),

8
2/7/19 (CP 227–240) his 1/8/19 motion for summary
judgment (CP 320–333), and Providence Hospital’s
1/23/19 joinder (CP 295–297) and 2/25/19 joinder (CP
198–200).
The chart summarizes Cantu’s repeated motions
to compel discovery:
Interrogatories and RFPs Motions to
Repeated Fillings

Compel Answers

1 8/27/18

CP 113–194
Ex 11

2 11/7/18

CP 380–382 1 12/10/18

CP 348–350

2 12/12/18

CP 334–345

3 2/4/19

CP 264–267

4 3/4/19

CP 113–194

5 5/28/19

CP 90–93 and
CP 75–87

6 6/5/19

CP 47–63

7 6/14/19

CP 5–32

8 3/11/20

CP 77–105

3 2/28/19

CP 113–194
at end of
document

Defendants brought four motions for hearings for
summary judgment set for: 12/28/18 (CP 365–376),

9
2/7/19 (CP 320–333), 3/8/19 (CP 227–240), and 6/6/19
(CP 227–240 continued from 3/8/19 hearing). Defendants did not confirm and allowed to be stricken
all of these except for 6/6/19—the date of the final
order here granting summary judgment and dismissing the case. So only one motion for summary
judgment was ever argued—on the last day of
the case. There was also only one motion for continuance by Plaintiff Mr. Cantu heard and decided by the court—3/8/19. Each time defendants
brought their summary judgment motions early in
the case and before any discovery had been provided,
though requested on 8/27/18, Plaintiff Mr. Cantu
brought a motion to compel the discovery and for continuance (filed 12/10/18 CP 348–350, 12/12/18 CP 334–
345, 2/4/19 CP 264–267, 3/4/19 CP 113–194, 5/28/19 CP
90–93 and Exhibits CP 75–87, 6/5/19 CP 47–63,
6/14/19 in Motion for Reconsideration CP 5–32), but
none of these motions were heard and decided
by the court because the defendants purposefully struck the summary judgment hearing
where the motions to continue would be heard
first. This 3/8/19 sole order of continuance granted a
90 day continuance but specifically refused to compel
discovery and ruled that there could be no more motions for continuance to locate an attorney, to get an
expert, and most importantly, to ask for any discovery in the case. THE COURT SPECIFICALLY
DENIED MR. CANTU THE RIGHT TO ANY DISCOVERY AFTER 3/8/19 EVEN THOUGH HE HAD
NEVER BEEN PROVIDED ANY DISCOVERY BY
THAT DATE. The 3/8/19 order (CP 100–101) states “no

10
more continuances shall be granted” and there were no
recordings or court reporting at any of the hearings at
any time in the case, so there is no RP available, but
the Minute Entry states,
“Plaintiff ’s motion to continue the summary judgment motion: granted. The
sworn testimony of an expert likely
would be required . . . there will be no
more continuances based on not having
a lawyer; no more continuances based on
not being ready to proceed with expert
testimony; and no more continuances
based on incomplete discovery.”
On 3/8/19, instead of granting Mr. Cantu’s motion
to compel the discovery, the trial court ordered that
there could never be a continuance thereafter based on
discovery or needing discovery for his expert and the
court gave him 90 days to get an expert to opine about
the medical records basis for medical malpractice or
the case would be dismissed. The Court continued the
summary judgment hearing to 6/6/19, giving Mr. Cantu
60 days to get the discovery of the medical records and
explanation of Code Blue cause from the anesthesiologist, BUT did NOT order compelling discover and prohibited more requests for court compelling of discover
so there was no way for Mr. Cantu to get the information for his expert.
By May 2019, Dr. Usoltsev’s identity as the anesthesiologist was discovered (without Providence Hospital providing any discovery) by Mr. Cantu stumbling
into a Russian-sounding name of anesthesiologist on

11
the Providence Hospital website and guessing it was
him from his family’s statement to him that they did
not know the anesthesiologist’s name, but they thought
that it was Russian. So in May 2019 Mr. Cantu took
the extraordinary step of getting a court order for a
subpoena duces tecum deposition (CP 96–99) of the
non-party anesthesiologist, but the anesthesiologist
failed to comply with the court order and provided no
information. On May 29, 2019, just a few days before
Mr. Cantu’s 6/4/19 motion to compel discovery and continue summary judgment and just before the 6/6/19
dismissal of the case, the anesthesiologist hired an attorney, Steven F. Fitzer, declared in a Declaration of
Counsel and Objection to Attendance Subpoena for
Deposition (CP 69–71) that the anesthesiologist was
an anesthesiologist and Fitzer was retained to represent him. Mr. Fitzer also stated that Dr. Usoltsev qualifies “as an expert to talk about his own care.”
Importantly, Steven Fitzer represented to the court
that Dr. Usoltsev is “not the custodian of documents
which would have to come from other sources . . . ” (CP
69–71). This is untrue because after dismissal of the
case the attorney provided Mr. Cantu the anesthesiologist’s own set of records he kept as anesthesiologist
with his own incorporated practice as an independent
contractor for Providence Hospital.
The importance of this is that the anesthesiologist would not provide any records himself
and this is exactly why the court should have
compelled the months old discovery from Providence Hospital and it significantly bolstered Mr.

12
Cantu’s argument that the court require these
records from Providence Hospital and the anesthesiologist (and his deposition) so that Mr.
Cantu could get the information necessary for
an expert opinion on medical malpractice in the
case when he was stymied for 10 months of demands for records and the court should have
granted Mr. Cantu these orders.
On 5/28/19 (CP 90–93 and Exhibits CP 75–87), Mr.
Cantu moved for continuance of the summary judgment hearing to compel the 10 month outstanding discovery, the deposition of Dr. Usoltsev, and to allow an
expert to have this evidence to testify to the medical
malpractice. Mr. Cantu’s Proposed Order asked again
for the unanswered discovery (CP 88–89). Mr. Cantu’s
motion to compel and for continuance was set for
6/4/19, but without hearing it, the court moved it to
6/6/19 (the court did not issue a written order or minute entry to the parties at the 6/4/19 hearing which
was unrecorded and not reported; the Clerk’s docket
said that it was stricken and reset by the court to the
very same day of 6/4/19, but the court told the parties
that day it would just decide the Mr. Cantu’s motions
two days later on 6/6/19 at the start of summary judgment hearing. On 6/6/19 the court granted summary
judgment (CP 41–42), dismissing the case for lack of
an expert, without ever giving appellant his court ordered by civil rules discovery and a chance at getting
to the merits on the matter not even set for trial and
with no discovery ever provided by Defendant Providence Hospital.

13
Mr. Cantu took the very extraordinary step of going around Providence Hospital’s attorneys and filing
a request for his medical records directly with providence hospital 45 days before the dismissal and even
these were withheld by Providence Hospital. Turns
out, that the undisclosed anesthesiologist who actually
caused the 11 minute code blue (not the other two anesthesiologists involved), after dismissal, provided
his own medical records he himself kept in addition to
those of Providence Hospital because—low and behold—he was not an employee of Providence Hospital, but instead had his own anesthesiology medical
practice under his own corporation and kept his
own anesthesiology records.
The significance of missing all of this requested discovery is that plaintiff Mr. Cantu
could never get an expert to give an adequate
opinion about the case without the full anesthesia medical records never provided and the
anesthesiologist’s explanation of exactly what
medication and delivery dose and timing and
Providence Hospital refused to ever provide this
contrary to the civil rules. Without such an expert opinion and given that the court would only
give 90 days without compelling this discovery,
the case was dismissed.
Mr. Cantu seeks to overturn the erroneous summary judgment dismissal of Defendant Providence
Hospital, ending the case. The trial court should have
continued the motion for summary judgment to allow
full discovery of the defendant’s medical records for

14
plaintiff appellant (including all of the anesthesiologist’s records), answers to interrogatories and RFPs,
depositions of all involved the day of the surgery, and
allowed the amendment of the complaint to include the
new-found identity of the anesthesiologist and the
other relevant treaters and have it relate back to the
original complaint filing date.
Appeal was filed, an Opinion issued, then withdrawn by the court of appeals after reconsideration
motion pointing out all the many errors of fact contrary
to the record, then a new opinion issued, another reconsideration denied, and The Washington Supreme
Court denied the Petition for review. This Petition to
the United States Supreme Court was filed timely.
The Providence Hospital chart notes were received by Mr. Cantu only after the case was dismissed
and do not explain any cause of the 11 minute Code
Blue or document any error. As explained below, Providence Hospital and their attorneys withheld all the
medical records until after the dismissal despite many
months of requests for answers to very timely interrogatories and rpfs and pro ses Cantu taking the very extraordinary step of going around providence hospital’s
attorneys and filing a request for his medical records
directly with providence hospital 45 days before the
dismissal and even these were withheld by providence
hospital. Turns out, that the undisclosed anesthesiologist who actually caused the 11 minute code blue (not
the other two anesthesiologists involved), after dismissal, provided his own medical records he himself kept
in addition to those of providence hospital because—

15
low and behold—he was not an employee of providence
hospital, but instead had his own ane. medical practice
under his own corporation and kept his own records.
Though the responsible anesthesiologist.
This was about a week before the dismissal. Cantu
brought motions for continuance of the Providence
Hospital summary judgment motion and brought motions to compel answers to his discovery requests and
for the deposition of the anesthesiologist the court had
for whom already issued the subpoena for his deposition with all medical records, snubbed by the anesthesiologist. Timely reconsideration of dismissal, Mr.
Cantu motioned for adding him as a party and relation
back to the original Complaint, timely under the three
year statute of limitation.
Mr. Cantu argued that his due process rights were
being violated by the dismissal of his case while discovery was pending to learn the actual cause of injury
and find sufficient evidence for his expert and all of the
ramifications from that in several motions before the
superior court, on reconsideration of the dismissal, on
appeal to the higher court, and on appeal to the
Washington State Supreme Court. He challenged the
constitutionality of the one year discovery statute of
limitation versus three years for other bodily injury
victims in the Court of Appeals and the Washington
State Supreme Court.
---------------------------------♦---------------------------------

16
REASONS FOR GRANTING THE PETITION
I.

THE SUPREME COURT, FEDERAL CIRCUITS, AND STATE HIGHEST COURTS
ARE IN CLEAR CONFLICT REGARDING
CONSTITUTIONAL PROTECTIONS IN
MEDICAL MALPRACTICE DISCOVERY
RULE CASES

It is an issue of substantial public interest that
should be determined by the Supreme Court, when
courts grant summary judgment or dismissal when
discovery has been thwarted (against the Supreme
Court’s ordered civil rules) by the very party bringing
summary judgment or dismissal motions. We need a
paradigm-shifting Supreme Court ruling that makes
clear to Washington State courts and all federal and
state courts that constitutional due process rights require allowing litigation discovery to reasonably be
completed before the summary dismissal of cases. It is
a significant question of constitutional law when the
guaranteed due process rights for reasonable discovery
before Summary Judgment or Motions to Dismiss are
trampled upon by too-early dismissals by courts under
the excuse that it is in their discretion. Now it is time
to make clear that cases should be heard on the merits
to do justice between the parties and not dismissed
when the other side will not give reasonable discovery,
but instead brings a motion for summary judgment or
dismissal. The discretion allowed to judges to dismiss
cases in the face of clearly needed discovery will always
escape true review because the standards for abuse of
this discovery are non-existent. The higher courts just

17
“rubber stamp” the lower court’s discretion because it
is so fact-oriented and the great presumption in favor
of the lower courts’ exercise of discretion as trier of
fact. The rule should be that if relevant discovery is
still outstanding, no summary judgment or motion to
dismiss shall be granted and reasonable discovery
shall be ordered.
RCW 4.16.350(3), the “discovery rule” “tolling” of
statutes of limitations in medical malpractice suits
(one year) versus personal injury (three years) suits
unconstitutionally. This is a significant question of constitutional law of violations of the due process and
equal rights guarantees under the constitutions of
the State of Washington and The United States and
grants special privileges and immunities to doctors in medical malpractice cases, contrary to the
rights of all other professionals and tortfeasors in
cases where statute of limitations spell out tolling discovery rules in Washington are three years for torts,
instead of one year for medical malpractice without
any proper legislature purpose or rational reason
therefore.
A pro se person prevailing should be allowed reasonable attorney’s fees and costs under contract, statute, case law, for attorney’s fees and costs incurred in
assisting in the matter, but without a formal appearance by the attorney, just as a party whose attorney
formerly appeared would be entitled to such reasonable attorney’s fees and costs. This is an issue of substantial public interest and a significant question
of constitutional law, as it violates equal rights and

18
due process guarantees under the constitutions of the
Washington and The US.
Washington State’s RCW 4.16.350(3), granting one year statute of limitations after discovering medical malpractice and eight year repose
compared to three year discovery rule and unlimited repose statute of limitations in other
bodily injury cases in RCW 4.16.080(2) violates
constitutional rights to equal protection, due
process, right to jury trial, and grant special
privileges and immunities to health care providers versus their victims and contrary to the situation of other citizens of these United States.
A car accident victim in Washington can sue for
negligence upon discovery of ALL four elements of a
cause of action up to three years after discovery of ALL
four elements and no repose deadline in which to make
the discovery—it can be brought any time after the discovery, but within three years of the discovery. NOTE:
The starting date of the discovery rule statute of limitations is the major problem in so many cases because
the statute of limitation is tolled until discovery of ALL
four elements (“Under the Discovery statute, a cause
of action accrues when the plaintiff knew or should
have known the essential elements of the cause of action: duty, breach, causation and damages.” Allen v.
State, 118 Wn.2d 753, 757–758 (1992)), but the learning of and getting proof of causation and the actual
damages attributable to the medical malpractice often
vigorously disputed. Here, Mr. Cantu had years of trying to find out whether there was a causal link between

19
what the anesthesiologist did and mental deficits he
was having.
On the other hand, Washington medical malpractice victims can sue within three years statute of limitations, but only within one year of the discovery and
with an eight year repose meaning it could never be
brought after eight years even if discovered thereafter.
This unequal protections for victims of bodily injury,
impacting their due process rights to justice through
the courts and right to jury and granting of special
privileges and immunities to health care providers versus other tortfeasors is unconstitutional and deserves
review by this Court because the guidance from this
Court is unclear and is state and federal courts are in
conflict on these issues and with this Court.
Medical victims get two years fewer than
auto accident victims. This, of course, is ridiculous
because everyone knows that medical malpractice
actions are far more difficult to prove and acquire information for all of the elements because only professional doctors hold this information and they make
and keep their own records and a reasonable person
will never be on par with a medical provider.
. . . . In its discussion of the reasons why most
jurisdictions have adopted a special rule for
medical malpractice cases, the Restatement
(Second) of Torts notes
“that the nature of the tort itself and the character of the injury will frequently prevent
knowledge of what is wrong, so that the

20
plaintiff is forced to rely upon what he is told
by the physician or surgeon.”
Restatement (Second) of Torts § 899, Comment e,
p. 444 (1979).] If anything and the court is going
to consider victim’s differently, the discovery
rule should allow more than three years in medical malpractice cases (vs in standard injury
cases, which have much more obvious injuries
and the causes thereof ). This is unequal protection
of victims and an inequity in due process rights guaranteed to all victims and a specific privilege and immunities appointed to Washington doctors versus all
other bodily injury tortfeasors. This Court should find
RCW 4.16.350(3) unconstitutional and grant plaintiff
at least three years from discovery.
Furthermore, Washington’s one year statute of
limitations under the discovery rule is far too short a
time and unconstitutionally unequal with other injury
statutes of limitations, as many courts point out (See
for example United States v. Kubrick, 444 U.S. 111, 100
S.Ct. 352, 62 L.Ed.2d 259 (1979) Footnote 6: “The 1year existing period is unfair to some claimants
who suffered injuries which did not fully develop until after the expiration of the period for
making claim.” Congress writing on the law addressed in the case. And in Footnote 7:
Restatement (Second) of Torts § 899, Comment e, pp. 444–445 (1979), reflects these developments:

21
“One group of cases in which there has been
extensive departure from the earlier rule that
the statute of limitations runs although the
plaintiff has no knowledge of the injury has
involved actions for medical malpractice. Two
reasons can be suggested as to why there has
been a change in the rule in many jurisdictions in this area. One is the fact that, in most
instances, the statutory period within which
the action must be initiated is short—one
year, or at most two, being the common time
limit. This is for the purpose of protecting physicians against unjustified claims; but since
many of the consequences of medical malpractice often do not become known or apparent
for a period longer than that of the statute, the
injured plaintiff is left without remedy. The
second reason is that the nature of the tort itself and the character of the injury will frequently prevent knowledge of what is wrong,
so that the plaintiff is forced to rely upon what
he is told by the physician or surgeon.
In Kubrick the plaintiff patient had treatment for
a leg infection in April 1968; six weeks after discharge
he had ringing in the ears which led to bilateral hearing loss. There is some controversy about various theories about what caused this (occupation work with
machines). The Circuit Court of Appeals held that if a
medical malpractice claim does not accrue until a
plaintiff is aware of his injury and its cause, neither
should it accrue until he knows or should suspect that the doctor who caused the injury was
legally blameworthy, and that the two year

22
limitations period (normally April, 1970) was not
triggered until the second physician indicated,
in June, 1971, that the neomycin treatment had been
improper.
The US Supreme Court Held: A claim accrues
within the meaning of the Supreme Court held FTCA
§ 2401(b) when the plaintiff knows both the existence and the cause of his injury, and NOT at a later
time when he also knows that the acts inflicting
the injury may constitute medical malpractice.
Hence, respondent’s claim accrued in January, 1969,
when he was aware of his injury and its probable
cause, and thus was barred by the 2-year statute of
limitations. The Court, frankly, took a harsh position
that a Plaintiff who suffers a bad medical outcome has
a prospect
“ . . . not so bleak for a plaintiff in possession
of the critical facts that he has been hurt and
who has inflicted the injury. He is no longer at
the mercy of the latter. There are others who
can tell him if he has been wronged, and he
need only ask. Kubrick, 444 U.S. at 122.”
This has led to many courts around the county,
state and federal, dismissing plaintiff ’s cases under
the discovery rule, taking the objective accrual date of
injury hardline while other courts, state and federal,
have approved of cases going forward under a discovery rule more understanding that plaintiff ’s often do
not have possession of the critical facts and his doctors
either not telling him, or not fully telling him that he
has been wronged by care falling below the standard

23
of care. It is a simple fact that most doctors do not want
to pass judgment on this for themselves or other doctors.
There are 24 later US Supreme Court cases that
cited the Kubrick case, but they do not cite it for nonrelevant reasons in relation to the discovery rule and
change its ruling to grow with the federal circuits and
state courts discovery rule expansion beyond the objective accrual standard of date of injury knowledge. The
only US Supreme Court ruling that really considers
this topic after Kubrick was Rotella v. Wood, 528 U.S.
549, 120 S.Ct. 1075, 145 L.Ed.2d 1047, 68 U.S.L.W.
4153 (2000), which followed the Kubrick ruling
“ . . . pattern discovery rule would allow proof
even more remote from time of trial and,
hence, litigation even more at odds with the
basic policies of all limitations provisions: repose, elimination of stale claims, and certainty
about a plaintiff ’s opportunity for recovery
and a defendant’s potential liabilities. See,
e.g., Klehr, supra, at 187. In the circumstance of medical malpractice, where the
cry for a discovery rule is loudest, the
Court has been emphatic that the justification for such a rule does not extend beyond the injury. United States v. Kubrick,
444 U.S. 111, 122. A person suffering from
inadequate treatment is thus responsible
for determining within the limitations
period then running whether the inadequacy was malpractice. There is no good
reason for accepting a lesser degree of responsibility on a RICO plaintiff ’s part. The fact, as

24
Rotella notes, that identifying a pattern in
civil RICO may require considerable effort
does not place a RICO plaintiff in a significantly different position from the malpractice
victim, who may be thwarted by ignorance of
the details of treatment decisions or of prevailing medical practice standards.” Id.”
Rotella is also out of step with the reality of complicated medical malpractice causation for most injuries
rising to suits.
It is time for the US Supreme Court to grant
certiorari in this case to reconsider these very
important issues regarding discovery rule statute of limitations in these many decades since
Kubrick in conflict with many state and federal
decisions and leading to disastrous dismissal of
many plaintiff ’s cases contrary to constitutional
protections.
A. FEDERAL CIRCUIT COURTS IN CONFLICT WITH KUBRICK AND AMONGST
THEMSELVES
Nicolazzo v. United States, 786 F.2d 454 (1st Cir.
1986) distinguished the facts of Kubrick and held that
plaintiff ’s awareness that VA physicians were not aiding him did NOT constitute knowledge of injury and
its cause.
Miller v. Philadelphia Geriatric Center, 463 F.3d
266 (3d Cir. 2006) held that Kubrick’s objective
standard did not govern the timeliness of Miller’s

25
suit and that Barren was factually distinguishable.
Stoleson v. United States, 629 F.2d 1265 (7th Cir.
1980) held that plaintiff ’s claim was “unknowable” until she was informed of causal connection between her exposure to nitroglycerin and
her heart condition, which was previously not
acknowledged by medical community.
Wollman v. Gross, 637 F.2d 544 (8th Cir. 1980),
held that Congress did not intend “to allow the
state statute of limitations to apply whenever
plaintiff is unaware of the status of the defendant
as a federal employee acting within the scope of
his employment.”
Arroyo v. U.S., 656 F.3d 663 (7th Cir. 2011)
Reiterating 7th circuit’s rejection of a Kubricktype rule requiring “all reasonable persons who
suffer injuries while under the care of medical
professionals [to] assume that their injuries can
be attributed to shortcomings in the care they
received”.
E. Y. v. United States, No. 13-2854 (7th Cir. 2014)
Held that a reasonable trier of fact could find that
Ms. Wallace the mother was unaware and had no reason to be aware of the Friend Center’s potential involvement in her son’s injuries until less than two
years before she filed suit.

26
Santos v. U.S., 559 F.3d 189 (3d Cir. 2009)
Holding plaintiff entitled to equitable tolling
when she “diligently and vigorously pursued her
claim” and, yet, she was unable to ascertain hospital’s federal status
Bayless v. United States, 767 F.3d 958 (10th Cir.
2014)
Holding that an FTCA claim for a plaintiff injured by exposure to nerve gas did NOT accrue
during the years in which the plaintiff fruitlessly sought a diagnosis from her doctors, even
though, at some point, she had enough information to suspect her injury’s true cause
Cloer v. Sec. of Health and Human Serv., 654 F.3d
1322 (Fed. Cir. 2011)
Following Kubrick: In Cloer v. Sec’y of Health and
Human Services, 654 F.3d 1322 (Fed. Cir. 2011) (en
banc) the court held that “the statute’s limitations period begins to run on the calendar date of the occurrence of the first medically recognized symptom or
manifestation of onset of the injury claimed by the petitioner.”
McIntyre v. U.S., 367 F.3d 38 (1st Cir. 2004)
Holding that, even assuming arguendo that
the plaintiffs had a duty to inquire, their claim
would not have accrued during the relevant
timeframe because the necessary factual predicate for their claim “was hidden behind a veil of
secrecy”

27
Winter v. U.S., 244 F.3d 1088 (9th Cir. 2001)
Holding that the plaintiff ’s claim had not accrued when, in contrast to Kubrick, “at no point
did any doctor tell Steven Winter that the electrodes implanted by Dr. Marsolais caused, or
might have caused, his cellulitis”
Brazzell v. United States, 788 F.2d 1352 (8th Cir.
1986)
Holding that because the plaintiff ’s doctor
initially told her the cause of her injuries-a vaccination-could not be the cause, the statute of
limitations did not begin to accrue until her doctor drew the connection.
B. STATE COURTS IN CONFLICT WITH
KUBRICK AND EACH OTHER
Wilson v. El-Daief, 600 Pa. 161 (Pa. 2009) Held: the
plaintiff ’s immediate suspicion of surgical error after
surgery did not start the statutory clock as a matter of
law because her surgeon denied error and the second
opinion she sought suggested surgical error as only one
of several possible explanations for her pain. Similar
to Mr. Cantu’s case.
Degussa Corporation v. Mullens, 744 N.E.2d 407
(Ind. 2001) Holding statute of limitations not triggered
where plaintiff suspected illness stemmed from defendant’s product and treating physician “said nothing
to confirm, deny, or even strengthen her suspicions”
Also, similar to Mr. Cantu’s case.

28
Martin v. Richey, 711 N.E.2d 1273 (Ind. 1999)
Holding Indiana Medical Malpractice Act statute of limitations unconstitutional as applied to
plaintiffs whose medical condition and the nature
of the asserted malpractice make it unreasonable
to expect that they could discover the asserted
malpractice and resulting injury within the limitations period.
Even a restrained interpretation of Section 12
warrants the conclusion that an application of
the two-year statute of limitations on the facts
of this case violates both Section 12 and “lay
concepts of justice.” Chaffin, 310 N.E.2d at
870. [11] If Section 12 has any meaning at all,
it must preclude the application of a twoyear medical malpractice statute of limitations when a plaintiff has no meaningful opportunity to file an otherwise valid
tort claim within the specified statutory
time period because, given the nature of
the asserted malpractice and the resulting injury or medical condition, plaintiff
is unable to discover that she has a cause
of action. Stated another way, the medical malpractice statute of limitations is
unconstitutional as applied when plaintiff did not know or, in the exercise of
reasonable diligence, could not have
discovered that she had sustained an injury as a result of malpractice, because in
such a case the statute of limitations
would impose an impossible condition on
plaintiff ’s access to courts and ability to
pursue an otherwise valid tort claim. To

29
hold otherwise would be to require a
plaintiff to bring a claim for medical
malpractice before becoming aware of
her injury and damages, an essential element of any negligence claim, and this indeed would be boarding the bus to topsyturvy land. [12]
Pedersen v. Zielski, 822 P.2d 903 (Alaska 1992)
Holding that even though an informed reading of the
medical records may have disclosed the cause of the
patient’s injuries, it does not necessarily follow that the
plaintiff ’s reliance on the misrepresentations of the defendant doctor were unreasonable, and plaintiff should
have the opportunity to prove estoppel. In Mr. Cantu’s
case the anesthesiologist did NOT put in the records
the medical error.
Maestas v. Zager, 141 N.M. 154 (N.M. 2007)
Finding that summary judgment based on the
expiration of the statute of limitation was not appropriate, because it was not clear that the plaintiff knew or with reasonable diligence should
have known of the decedent’s injury and its cause
Anthony v. Abbott Laboratories, 490 A.2d 43 (R.I.
1985)
In Anthony, the court referred to its “conscious balancing of policies” to prevent “the unexpected enforcement of stale claims with the
opportunity of a person to have her day in court
to vindicate those rights that have been violated
but have remained undiscovered or undiscoverable.”

30
Taylor v. Freeland & Kronz, 503 U.S. 638, 112 S.Ct.
1644, 118 L.Ed.2d 280, 60 U.S.L.W. 4333 (1992)
The former involves fraudulent concealment; the
latter defines undiscovered fraud. The Court concluded
in Bailey [Bailey v. Glover, 21 Wall. 342, 349–350
(1875)] that fraudulent concealment, which was at issue in that case, tolls the running of the statute of limitation when the fraud “has been concealed, or is of
such character as to conceal itself.” Id. at 349–350. To
hold otherwise, reasoned the Court, would “make the
law which was designed to prevent fraud the means by
which it is made successful and secure.” Id. at 349. In
Holmberg v. Armbrecht, 327 U.S. 392, 397 (1946).
Jurich v. John Crane, Inc., 824 N.E.2d 777
(Ind.App. 2005)
In so concluding, we relied primarily on Martin v.
Richey, 711 N.E.2d 1273, 1283–84 (Ind.1999), which
held the Medical Malpractice Act’s two-year occurrence-based statute of limitations violated Article 1,
§ 12 as applied to plaintiffs who did not know of and
could not have discovered the act of malpractice within
the two-year period.
In Walk v. Ring, 202 Ariz. 310, 44 P.3d 990
(Ariz. 2002), the Arizona Supreme Court rejected the Kubrick bright-line approach. But
such a rule would also have some unjust
effects. For example, it would bar meritorious actions by those who have been reassured by their doctors, those who have
no reason to believe they were negligently
injured, or those who had no way to ascertain they were injured through some

31
wrongdoing. In addition, it would inject
an element of mistrust into the relationship between patients and clients on the
one hand and their professional care-givers and advisors on the other. In cases in
which an adverse outcome is not in itself
sufficient to put a reasonable person on
notice to investigate whether a known injury is attributable to negligence, patients and clients should not be required
to commence investigation of a malpractice action. We conclude that, on balance,
the better rule is the one we have followed
before and follow today.
The Kubrick majority justified the bright-line rule
with the following reasoning:
If there exists in the community a generally
applicable standard of care with respect to the
treatment of his ailment, we see no reason to
suppose that competent advice would not be
available to the plaintiff as to whether his
treatment conformed to that standard. If advised that he has been wronged, he may
promptly bring suit.
“The facts of the present case indicate
that such advice is not always so readily
forthcoming. Whatever Defendant believed about the propriety of his treatment, he did not tell Plaintiff about the
opinion of his colleague or colleagues,
and they did not volunteer such information. It is undeniably true that the
“best medical treatment sometimes fails,

32
. . . or produces bad side effects.” Kitzig,
97 Cal.Rptr.2d at 768 (quoting Gutierrez v.
Mofid, 39 Cal.3d 892, 218 Cal.Rptr. 313, 705
P.2d 886, 890 (1985)). We decline to adopt a
rule that, in every case, would require a patient or client who suffered an adverse result
to question her doctors or lawyers about the
possible sins of their predecessors. We therefore conclude that for the present case, the
questions of discovery, diligent investigation,
and resulting accrual were for the jury.”
Moreover, if fraudulent concealment is established, the patient is relieved of the duty of
diligent investigation required by the discovery rule and the statute of limitations is tolled
“until such concealment is discovered, or reasonably should have been discovered.” Id. (citing Tom Reed, 39 Ariz. 533, 8 P.2d 449). In
fraudulent concealment cases, the duty to investigate arises only when the patient “discovers or is put upon reasonable notice of the
breach of trust. . . .” [6] Id. (quoting Griffith v.
State, 41 Ariz. 517, 528, 20 P.2d 289, 293).
. . . . Moreover, our cases do not limit the duty
to disclose to actual knowledge. A doctor must
disclose what he “knew or was chargeable
with” knowing. Morrison, 68 Ariz. at 34–35,
198 P.2d at 595.

33
II.

DUE PROCESS IS VIOLATED WHEN
STATES DO NOT FOLLOW THEIR OWN
CIVIL RULES AND HERE THE SUPREME
COURT SHOULD REVERSE WASHINGTON’S RULING AS A BEACON TO ALL
STATES AND THIS VIOLATION TOOK
AWAY MR. CANTU’S DISCOVERY RULE
BASIS FOR HIS SUIT AGAINST THE DOCTOR AND SUIT AGAINST THE HOSPITAL,
BOTH WHOM THE COURT DID NOT COMPEL EVIDENCE SUPPORTING THE DISCOVERY RULE, THE EXPERT OPINION,
AND THE SUIT.

Washington Courts, in dismissing and failing to
reverse dismissal of Plaintiff ’s medical malpractice
case for failure to provide an expert opinion thereon,
violate Mr. Cantu’s due process constitutional rights by
denying application of the discovery rule extending the
statute of limitations to join as a party the allegedly
negligent anesthesiologist and by denying him litigation discovery information necessary for his Stanford
University anesthesiology professor expert to support
his case.
We know everyone bringing a case before the
US supreme Court claims a due process violation
and that most of these cases are seen as a particular individuals slight and review is not accepted. But this time, there is a major systematic
problem within the Washington State courts dismissing cases in medical malpractice without allowing the litigation discovery to happen to give

34
the plaintiffs the information necessary for their
mandatory expert to give an opinion to allow the
case to proceed. Even having the top expert on
topic as Stanford University Anesthesiologist
professor on board, without the discovery did
not save Mr. Cantu’s case.
Breithaupt v. Abram, 352 U.S. 432 (1957)
. . . due process is not measured by the yardstick of personal reaction or the sphygmogram
of the most sensitive person, but by that whole
community sense of “decency and fairness”
that has been woven by common experience
into the fabric of acceptable conduct. It is on
this bedrock that this Court has established
the concept of due process.
Joint Anti-Fascist Committee v. McGrath, 341 U.S.
123 (1951)
“Due process is perhaps the most majestic
concept in our whole constitutional system.”
Courts must Continue Summary judgment for
Pending Discovery and WA State courts violated Mr.
Cantu’s Due Process Rights
This duty was applied in a medical malpractice
case, Butler v. Joy, 116 Wn.App. 291 (2003), where the
court held.
Ms. Butler’s attorney, Mr. Umuolo, was retained
just the day before the summary judgment
hearing. He appeared without written affidavits in support of a continuance and

35
presented the motion orally. The hearing
was not recorded and we have no indication whether Mr. Umuolo argued that he
needed more time to obtain further discovery or what further evidence he expected to produce. Strictly speaking, his
motion does not fit within the guidelines of a
CR 56(f ) continuance. However, “[t]he primary consideration in the trial court’s
decision on the motion for a continuance
should have been justice.” Coggle v. Snow,
56 Wash.App. 499 (1990). . . . Mr. Umuolo deserved an opportunity to prepare a response
on the issues of law. Dr. Joy has not argued
that she would have been prejudiced by a continuance. As noted in Coggle, it is hard to see
“how justice is served by a draconian application of time limitations” when a party is hobbled by legal representation that has had no
time to prepare a response to a motion that
cuts off any decision on the true merits
of a case. Id. at 508, 784 P.2d 554. Because
we cannot find a tenable ground for the
trial court’s decision, we hold that the denial of the continuance was an abuse of
discretion.
The Washington Supreme Court in Tellevik v.
31641 W. Rutherford St., 120 Wn.2d 68 (1992), set out
the factors in granting a motion to continue a summary judgment motion for additional discovery under
CR56(f). In Tellevik, 120 Wn.2d at 90 (1992), Tellevik
dictates that lower courts in Washington MUST
grant a motion to continue summary judgment if all
of the following three conditions are met (the courts

36
repeatedly state this in the negative that the lower
court cannot be in error if it denies a motion for continuance of summary judgment if any one of the three
does not happen, but stated positively the court MUST
grant a motion for continuance of summary judgment
if all the following are met by the moving party for continuance): (1) the moving party offers a good reason for
delay in receiving the desired evidence, (2) the moving
party states what evidence would come from additional discovery, and (3) the moving party states the
desired evidence will raise a genuine issue of material
fact. The Washington State Supreme Court in Tellevik
applied the three conditions and ruled that “[t]he trial
court should have allowed plaintiffs to complete discovery. The necessary information was not obtained
because defendants’ counsel did not provide the requested documents when asked informally nor when
served with requests for production.” Id at 91. The
court, in finding that the plaintiff demonstrated all
three factors necessary to show that a continuance
should be granted went on to say that the facts the
plaintiff claims would be discovered by a continuance
“and the reasonable inferences therefrom viewed in
the light most favorable to the plaintiffs would raise
genuine issues of fact regarding Mrs. Pearson’s knowledge of and her acquiescence or consent to the illegal
conduct. Therefore, the trial court abused its discretion
in not granting the continuance.” Id.
In Tellevik, the facts were the same as in Cantu’s
in this case: there, plaintiff served interrogatories and
requests for production of documents. No answers

37
came back before defendant brought its motion for
summary judgment. Plaintiff found out a needed witness, but he would not answer questions, so plaintiff
brought a CR 56(f ) motion to continue the summary judgment motion to complete the discovery. In our case, Cantu served interrogatories and
requests for production of documents. No answers
came back before defendant brought its motion for
summary judgment. Cantu found out a needed witness
(Doctor Usoltsev the anesthesiologist discovered in the
month before the 6/6/19 summary judgment motion),
but he would not answer questions in a deposition and
there were not the required 33 days left before the
6/6/19 summary judgment hearing for the doctor to answer interrogatories even if the court made him a
party with less than a month to go, so plaintiff brought
a CR 56(f ) motion to continue the summary judgment
motion to complete the discovery. Similar to Tellevik,
here, this court should at least find an abuse of discretion. Under (1), as a pro se, he definitely should be
given the opportunity to receive the requested discovery months-long delayed by attorneys who have
never provided any answers to discovery clearly in
non-compliance with court rules. The court knows this:
the pecking order is at the top, attorneys who fight
hard for their clients within the court rules, below that
are attorneys who fight easier and dirty and ignore the
court rules, then there is the Pro Se who does his best
with the court rules but at the bottom of the pecking
order is the mentally challenged Pro Se who will mess
up from time to time in trying to follow the court
rules, but also the court needs to be more aware of

38
these Pro Ses and assist them when necessary because
the court is also charged with doing justice between
the parties. Cantu is mentally challenged from the
medical malpractice here and anyone can see that from
his pleadings, and it is amazing that he substantially
complies with providing the courts with all of the elements of Res Ipsa Loquitur, discovery requests, motions to compel, getting a court issued subpoena for
deposition, his many CR 56 and 57 requests, etc. and
more reason that the trial court should have granted
continuance of summary judgment for him to have the
opportunity to get discovery for his experts. And under
subsection (4) because Cantu moved to compel discovery several times before and at the summary judgment
hearing here and on reconsideration. In Cantu’s case,
Providence Hospital never even came up with any excuses, let alone a self-serving one, for its failure to ever
answer at any time any of Cantu’s many discovery requests. Similarly, here this court should find the trial
court erred in refusing discovery for the first time.
Here, pro se Cantu had asked for a continuance and an
order compelling discovery to get from Defendants the
discovery he submitted to them of interrogatories and
requests for production of documents PENDING for
nine months since August 2018 without any good faith
answer (except Dr. Vaderah’s 1/20 answers and one CD
of some medical records, but these were not Providence
medical records because Dr. Vaderah was with Skagit
Valley Medical and NOT with Providence and they had
no information relevant here regarding the Providence
anesthesia medical malpractice).

39
These Providence Hospital records were necessary
for Plaintiff ’s potential experts to provide the court
DECLARATIONS TO DEFEAT SUMMARY JUDGMENT IN THE PENDING hearing 6/6/19, as argued
in CP 90–93, 75–87 RE: Motion to Continue and Motion to Compel Discovery and in all of the eight motions to continue/compel quoted in the chart above.
This is all the fault of defendants for not answering
discovery required by the CRs AND the 5/19 just-discovered anesthesiologist Dr. Usoltsev refused to go to
his deposition 5/31/19 ordered by the court-issued subpoena (CP 99). A court was required to issue this for a
Pro Se. Dr. Usoltsev’s attorney notified Cantu by mail
received the night before the 5/31/19 deposition that he
would not come for undetailed reasons, CP 90–93 and
CP 47–63. The attorney had the gall (in face of discovery court rule and subpoena requiring the deposition
and his bald non-compliance and obstruction) to request that the court to allow that deposition to be AFTER the summary judgment hearing on 6/6/19. CP 64–
66. This is ridiculous and shows major bad faith dealings on the part of Defendants “hiding the ball” in discovery by simply never providing any discovery and
working with Providence to never give any Providence
records. It turns out he also worked with Providence to
make sure that Cantu never got the anesthesiologist’s
own medical records he kept himself and never gave
providence. Cantu timely moved the court to continue
the summary judgment hearing to 8/30/19 and compel
the discovery and depositions here.
---------------------------------♦---------------------------------

40
CONCLUSION
The petition for a writ of certiorari should be
granted and attorney fees and costs awarded to Petitioner.
Respectfully submitted,
WILLIAM C. BUDIGAN
Attorney for Petitioner
2601 42nd Ave. W
Seattle, WA 98199-3011
(206) 284-5305
info@budiganlaw.com
Dated August 2, 2021

